APPENDIX

1a

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20420

CHRISTOPHER EDWARD MCMILLEN, an
Incapacitated Person
Plaintiff - Appellant
v.
NEW CANEY INDEPENDENT SCHOOL
DISTRICT,
Defendant - Appellee

Appeal from the United States District Court
for the Southern District of Texas

Before BARKSDALE,
Circuit Judges.

STEWART,

and

COSTA,

GREGG COSTA, Circuit Judge:
In exchange for federal funding of special
education services, schools must provide a “free
appropriate public education” to students with
physical or mental disabilities. 20 U.S.C.

2a
§ 1412(a)(1)(A). As part of that deal, the Individual
with Disabilities Education Act (IDEA) requires
administrative procedures to address disputes about
a disabled student’s education. If those procedures do
not fix the problem, parents may file a lawsuit to
assert their children’s rights. But the IDEA requires
exhaustion of the administrative process before a suit
may be filed over the denial of a free appropriate
public education. See id. § 1415(i)(2)(A). The
exhaustion requirement is not limited to suits
enforcing the IDEA. It applies to suits under any laws
that “seek[] relief that is also available under” the
IDEA. Id. § 1415(l).
We must decide whether the exhaustion
requirement applies to this suit seeking damages
under the Rehabilitation Act and section 1983 for a
student’s expulsion from high school. In answering
that question, we decide for the first time in our circuit
whether the IDEA’s exhaustion requirement applies
when the plaintiff seeks a remedy that the IDEA does
not supply.
I.
Because this suit was dismissed at the pleading
stage, we assume the following allegations to be true.
Gonzalez v. Kay, 577 F.3d 600, 603 (5th Cir. 2009.
Chris McMillen was enrolled in New Caney
Independent School District from age 4 (prekindergarten) until early in his junior year of high
school. During those years, the district developed and
implemented an individualized education program
(IEP) for McMillen, who had been diagnosed with
autism spectrum disorder, emotional disturbance,
and central-auditory-processing disorder. The

3a
program successfully managed
challenges for several years.

his

behavioral

McMillen’s behavior worsened during his
sophomore year to the point that he was threatening
to harm himself and others daily. The committee
overseeing McMillen’s IEP met three times that year.
By the middle of the year, McMillen was placed in the
district’s Pass Program, which is for students who
“have demonstrated either serious emotional
disturbance or behavior disorders” and have “not
responded to less intrusive interventions.”
Despite the problems during McMillen’s
sophomore year, the district returned him to the
regular school setting for his junior year. His IEP for
his junior year abandoned measures, like
participation in the Pass Program, that had proven
successful. McMillen’s parents complained about the
changes, but New Caney refused to amend his IEP.
The new plan was “woefully inadequate and
intentionally indifferent” to McMillen’s needs.
McMillen’s return to the traditional classroom put
him in Margaret Hudman’s English class. Hudman
tried to “save” McMillen, in two senses of the word.
She encouraged McMillen to take herbal supplements
that she thought could cure his autism. She also tried
to convert McMillen to Christianity, believing that if
he converted his disabilities would be cured.
About a month into the school year, Hudman gave
up and tried to have McMillen expelled. She collected
material that McMillen wrote during class and their
informal sessions which, taken out of context, made
McMillen appear dangerous. Hudman emailed these
materials to school administrators, who referred the

4a
matter to the school’s police department. The police
arrested and charged McMillen with the felony of
making a terroristic threat. Following McMillen’s
arrest, the district determined that he should attend
an alternative campus.
McMillen’s parents eventually accepted an offer
from the county attorney to drop the felony charge in
exchange for their agreeing to never return McMillen
to the school district. McMillen’s parents believed that
accepting the deal was the only option and ceased all
efforts to return him to New Caney ISD.
This lawsuit followed. The original complaint
asserted claims under the IDEA as well as the
Constitution and Texas law. But neither McMillen nor
his parents, who were suing on McMillen’s behalf
before he reached 18, completed the IDEA
administrative process (they only invoked some
preliminary procedures early on to challenge
McMillen’s amended IEP). After the school district
raised this failure to exhaust as a ground for
dismissal, McMillen amended his complaint to remove
the IDEA claim. The relevant complaint is his fourth
try, which asserts a Rehabilitation Act claim and an
equal protection claim under section 1983.
Defendants again sought dismissal on, among other
grounds, failure to exhaust. The district court granted
the motion.
II.
A.
States receiving IDEA funding must maintain
certain procedures to resolve disputes over the
adequacy of a covered student’s education. 20 U.S.C.
§ 1415(a). The procedures include: (1) the opportunity

5a
for any party to file a complaint, which forces a local
education agency to hold a preliminary meeting to
resolve the complaint, id. § 1415(b)(6), (f)(1)(B)(i); (2)
an impartial “due process hearing” to resolve the
complaint, which a local or state education agency
conducts, id. § 1415(f); and (3) mediation to resolve
the complaint, at the state’s expense. Id. § 1415(e)(1),
(e)(2)(D). A party not satisfied with the result of the
administrative process may bring an IDEA claim in
federal court. Id. § 1415(i)(2).
In its original form, the IDEA was the “exclusive
avenue” for enforcing a disabled student’s right to an
adequate education. See Smith v. Robinson, 468 U.S.
992, 1009 (1984). So a plaintiff seeking educational
accommodations for a disabled student could not sue
under other laws that protect the disabled, such as the
Rehabilitation Act. Id. at 1009, 1021. But soon after
the Supreme Court interpreted the law that way,
Congress charted a different course. Fry v. Napoleon
Cmty. Sch., 137 S. Ct. 743, 750 (2017) (citing
Handicapped Children’s Protection Act of 1986, Pub.
L. No. 99-372, 100 Stat. 796 (1986)). It took the
following middle ground: IDEA does not displace
other laws that may help disabled children receive an
education, but parties must try the IDEA’s
administrative process first. Id. In other words, a
plaintiff may invoke any federal law to support a
disabled student’s claim for an adequate education;
the plaintiff just must first exhaust under the IDEA.
The statute allowing non-IDEA claims but only
after exhaustion of the IDEA procedures provides:
Nothing in this chapter shall be construed to
restrict or limit the rights, procedures, and

6a
remedies available under the Constitution, the
Americans with Disabilities Act of 1990, title V
of the Rehabilitation Act of 1973, or other
Federal laws protecting the rights of children
with disabilities, except that before the filing of
a civil action under such laws seeking relief
that is also available under this subchapter, the
procedures under subsections (f) and (g) shall
be exhausted to the same extent as would be
required had the action been brought under
this subchapter.
20 U.S.C. § 1415(l). Because McMillen did not exhaust
the IDEA procedures, his suit asserting other federal
claims must be dismissed if it “seek[s] relief that is
also available under” the IDEA.
B.
The Supreme Court recently provided guidance to
help us determine when a suit seeks relief available
under the IDEA. It does so when the plaintiff seeks to
remedy the deprivation of the free appropriate public
education that the IDEA guarantees. Fry, 137 S. Ct.
at 752. The IDEA achieves its goal by providing
instruction and related services tailored to the child’s
unique needs. Id. at 755. So complaints that a school
did not adopt a plan individualized to the student’s
needs sound in the IDEA. In determining whether a
plaintiff seeks relief available under the IDEA, we
focus on the substance of the complaint, rather than
the “labels and terms” the plaintiff uses. Id.
But both the substance and language of McMillen’s
complaint reveal that he is challenging the denial of a
free appropriate public education. McMillen treats the
failure of his 2015−16 IEP as the precipitating event

7a
for all that followed his junior year. The IEP was the
district “giving up on Chris”; “abandon[ing] what had
been working”; exhibiting “negligence, professional
negligence and misjudgment, deliberate indifference,
and malice towards Chris”; and “was nothing more
than Defendant New Caney ISD and the IEP Team
proverbially throwing up their hands and declaring we
are tired of dealing with Chris-Twelve years of putting
up with him is enough.” The central failing of the IEP
is that it removed McMillen from the Pass Program,
which “was ‘designed to work with students who have
demonstrated either serious emotional disturbance or
behavior disorders,’ . . . and return[ed] him to the care
of professionals [who] had already proven their
inability to manage Chris’s Disabilities.” The IEP
thus was the reason McMillen was in the English
class where he lasted only about a month before the
behavior problems that resulted in the criminal
charge. And who was responsible for the problems
with the IEP? The “ARD Committee”—more IDEA
lingo meaning the Admission, Review, and Dismissal
Committee that Texas schools use to develop and
approve IEPs. See 19 TEX. ADMIN. CODE § 89.1050.
The complaint does not just allege failures to
comply with the IDEA when formulating the IEP
before McMillen’s junior year. McMillen alleges that
when the district decided to send him to an alternative
school, it failed to “hold an MDR.” That is yet another
term from the IDEA and its regulations meaning the
manifestation determination review that is required
when discipline results in a disabled student’s
removal from the school for more than ten consecutive
days. 34 C.F.R. § 300.530(c), (e). Such reviews
determine whether the conduct was a manifestation

8a
of the student’s disability, in which case the student
should receive additional support to address the
behavior problems. Id. § 300.530(e), (f).
There is even more in the complaint that focuses
on failures to provide a free appropriate public
education, but these examples provide a strong flavor
of the allegations that are laden with IDEA
terminology. Those allegations blame what happened
to McMillen on the district’s failures to comply with
the IDEA.
Because the face of a complaint will not always
make it apparent whether a non-IDEA claim is still
challenging the denial of a free appropriate public
education, the Supreme Court suggested two
questions that will help distinguish such claims from
those asserting general disability discrimination. Fry,
137 S. Ct. at 756. “First, could the plaintiff have
brought essentially the same claim if the alleged
conduct had occurred at a public facility that was not
a school?” Id. Second, could an adult (a teacher, for
example) have brought essentially the same claim
against the school? Id.; see also Reyes v. Manor Indep.
Sch. Dist., 850 F.3d 251, 256−57 (5th Cir. 2017)
(drawing on Fry’s two questions). If the answer to both
questions is yes—it was in Fry for the student suing
to have a service dog with her at school—then the
plaintiff is not seeking relief available under the IDEA
and need not exhaust. Fry, 137 S. Ct. at 758.
McMillen argues that the answer to both Fry
questions is also yes for his suit challenging his
removal from the district. He compares his situation
to a public library’s excluding a disabled person, who
would have Rehabilitation Act and equal protection

9a
claims for discrimination. So too, he contends, would
a disabled adult be able to sue if a school denied the
person access to the school. But describing his lawsuit
as the denial of access to the school facility
characterizes it too generally. See Nelson v. Charles
City Cmty. Sch. Dist., 900 F.3d 587, 592 (8th Cir.
2018) (explaining that a plaintiff answered the Fry
questions at too high a “level of generality” by framing
the denial of a request to enroll in online learning in a
different school district as a “broken promise of nondiscriminatory access”). McMillen’s view would mean
that any case challenging the suspension, transfer, or
expulsion of a disabled student would avoid the
IDEA’s exhaustion requirement—after all, such
discipline denies access to a school—even though the
IDEA regulations provide a hearing for those very
situations. See 34 C.F.R. § 300.530(c), (e). A more
specific description of this lawsuit would include what
McMillen identifies as the contributing factor to his
expulsion: the failure of the school to provide an
education tailored to his needs that would have,
among other things, prevented McMillen from being
in Hudman’s English class in the first place. That is a
claim that McMillen would not have against the
public library, nor one that a teacher would have
against the school.
If any doubt remains that this lawsuit is about the
denial of the education that the IDEA promises, there
are two other signs. That McMillen first alleged
violations of the IDEA in federal court “before
switching midstream” on learning of an exhaustion
defense indicates that his amended complaint is still
seeking to enforce the IDEA. Cf. Fry, 137 S. Ct. at 757
(observing that a plaintiff’s invoking the IDEA

10a
administrative procedures before abandoning them is
a “sign that the gravamen of a suit is the denial” of a
free public education). And in trying to fix another
problem with his earlier pleadings—the failure to
identify a policy that might render the district liable
under section 1983—McMillen again revealed that
this case is really about failures to comply with the
IDEA. For proof of the district’s “policy,” McMillen
cites a Department of Education report concluding
that Texas public schools “suppress” the number of
students eligible for special education services and the
IDEA services they receive.
We thus conclude that McMillen’s lawsuit
challenges New Caney ISD’s failure to provide him
with the free appropriate public education that the
IDEA promised him.
C.
But determining what injury McMillen seeks to
remedy is only half of the question that we must
decide. McMillen argues that the IDEA’s exhaustion
requirement applies only when the remedy that a
plaintiff seeks is available under the IDEA. Because
his lawsuit seeks damages, McMillen contends the
exhaustion requirement does not apply. In addressing
this argument, both sides accept its premise—that
damages are not available under the IDEA. The issue
is not that simple. The IDEA allows equitable
monetary rewards, such as reimbursement of
expenses like private school tuition a family
unnecessarily incurred in the past to provide special
education services. 20 U.S.C. § 1412(a)(10)(C)(ii);
Spring Branch Indep. Sch. Dist. v. O.W., 2019 WL
4401142, at *13 (5th Cir. Sept. 16, 2019). It also allows

11a
for “compensatory awards,” which “are designed to
provide ‘services prospectively to compensate for a
past deficient program.’” Spring Branch, 2019 WL
4401142, at *13 (quoting Draper v. Atlanta Indep.
Sch. Sys., 518 F.3d 1275, 1280 (11th Cir. 2008)
(awarding a student the option of multi-sensory
reading and tutor services, and a dedicated special
education teacher or reimbursement for private school
tuition)). But McMillen’s suit does not seek awards
tied to the cost of providing him with an adequate
education. He instead seeks damages for injuries like
emotional
distress,1
and
such
traditional
compensatory damages are not available under the
IDEA. Fry, 137 S. Ct. at 752 n.4.
We thus must address a question most circuits
have answered but this one has not: whether the
exhaustion requirement applies when a plaintiff is
seeking remedies not available under the IDEA.2 The
Supreme Court declined to answer the question in
Fry. 137 S. Ct. at 752 n.4. Most circuits hold that the

1

McMillen’s complaint also seeks punitive damages. But
punitive damages are not available under the Rehabilitation Act,
Barnes v. Gorman, 536 U.S. 181, 189−190 (2002), or against a
governmental entity for constitutional violations, City of Newport
v. Fact Concerts, Inc., 453 U.S. 247, 268, 271 (1981).
2 Doe v. East Baton Rouge Parish School Board, 121 F.3d 705,

705 (5th Cir. 1997) (per curiam), a brief and unpublished opinion,
affirmed the dismissal of a constitutional claim for damages
because the plaintiff failed to exhaust IDEA procedures. A later
case stated that “demanding monetary damages—which are
unavailable under the IDEA—does not automatically remove a
claim from the IDEA’s ambit,” Stewart v. Waco Indep. Sch. Dist.,
711 F.3d 513, 527 (5th Cir. 2013), but that opinion was vacated,
599 F. App’x. 534 (5th Cir. 2013).

12a
IDEA requires plaintiffs who were denied a free
appropriate public education to exhaust regardless of
the remedy they seek. See Z.G. v. Pamlico Cty. Pub.
Sch. Bd. of Educ., 744 F. App’x. 769, 777 n.14 (4th Cir.
2018); Batchelor v. Rose Tree Media Sch. Dist., 759
F.3d 266, 276 (3d Cir. 2014); J.B. ex rel. Bailey v.
Avilla R-XIII Sch. Dist., 721 F.3d 588, 595 (8th Cir.
2013); Polera v. Bd. of Educ. of Newburgh Enlarged
City Sch. Dist., 288 F.3d 478, 487−88 (2d Cir. 2002);
Frazier v. Fairhaven Sch. Comm., 276 F.3d 52, 64 (1st
Cir. 2002); Cudjoe v. Indep. Sch. Dist. No. 12, 297 F.3d
1058, 1068 (10th Cir. 2002); Charlie F. ex rel. Neil F.
v. Bd. of Educ. of Skokie Sch. Dist. 68, 98 F.3d 989,
991−92 (7th Cir. 1996); N.B. ex rel. D.G. v. Alachua
Cty. Sch. Bd., 84 F.3d 1376, 1379 (11th Cir. 1996); but
see Payne v. Peninsula Sch. Dist., 653 F.3d 863,
876−77 (9th Cir. 2011) (en banc) (requiring
exhaustion when a plaintiff sought an IDEA remedy
or its functional equivalent, such as money to pay for
private school or tutoring, but not when seeking other
damages), overruled on other grounds by Albino v.
Baca, 747 F.3d 1162, 1171 (9th Cir. 2014) (en banc).3
The question may be a closer one than the circuit
scorecard suggests. Although McMillen does not

3

The Sixth Circuit did not require exhaustion for a student
who had graduated because the IDEA procedures could no longer
provide him any relief. Covington v. Knox Cty. Sch. Sys., 205 F.3d
912, 917−18 (6th Cir. 2000). But it indicated it would follow the
majority approach outside that unusual situation, “disagree[ing]
that the plaintiff’s damages claim alone excuses her from
exhausting her administrative remedies.” Id. at 916.

13a
advance it,4 there is a textualist case that a claim does
not “seek relief that is also available” under the IDEA
if the plaintiff cannot seek the same remedy under the
IDEA. After all, the ordinary meaning of “relief” in the
legal setting is remedy. Relief, WEBSTER’S THIRD NEW
INTERNATIONAL DICTIONARY (3d ed. 2002) (defining
relief as a “legal remedy or redress”). Indeed, the
words define each other in the leading legal
dictionary. See BLACK’S LAW DICTIONARY (9th ed.
2009) (stating that “relief” is “also termed remedy”);
id. (defining “remedy” in part as “legal or equitable
relief”). The Solicitor General took this textualist
approach in Fry, arguing that exhaustion is not
required “[w]hen a plaintiff seeks only compensatory
damages under a non-IDEA statute.” Brief for the
United States as Amicus Curiae at 18, Fry, 137 S. Ct.
at 743. And the IDEA uses “relief” not just in its
exhaustion provision, but also when listing the
remedies available under the statute. 20 U.S.C.
§ 1415(i)(2)(C)(iii). Reading those provisions in sync
would further support the view that “relief” means
remedy.
But as we have noted, most courts read the statute
differently. They read “relief available” under the
IDEA “to mean relief for the events, condition, or
consequences of which the person complains, not
necessarily relief of the kind the person prefers.”
Charlie F., 98 F.3d at 991–92. According to this view,
because the IDEA can remedy the failure to provide a
blind student with a reader by giving her one, a suit
4

When interpreting a statute, we are not bound by the
interpretations “that the parties advocate.” See Young v. United
Parcel Serv., Inc., 135 S. Ct. 1338, 1353 (2015).

14a
seeking damages for such a failure must first exhaust
the IDEA’s administrative procedures. Id. at 992.
We agree that such an approach is necessary to
enforce the statutory scheme, under which
“educational professionals are supposed to have at
least the first crack at formulating a plan to overcome
the consequences of educational shortfalls.” Id.
Allowing a plaintiff complaining about the denial of a
free appropriate public education to avoid exhaustion
“merely by tacking on a request for money damages”
would subvert the procedures Congress designed for
prompt resolution of these disputes. Polera, 288 F.3d
at 487−88; accord N.B. ex rel. D.G., 84 F.3d at 1379.
The statutory preference is to solve these disputes by
providing the student with her promised education,
not by awarding damages years after the problem
arises in the classroom. Polera, 288 F.3d at 490.
Most other circuits addressed this issue pre-Fry.
Although Fry did not answer this question, its broader
reasoning on the exhaustion requirement tends to
support the majority view. Interpreting the IDEA to
prevent parties from circumventing the scheme that
Congress established in section 1415(l) through clever
pleading was central to Fry. 137 S. Ct. at 755. And the
Supreme Court’s test for exhaustion—whether the
lawsuit seeks a free appropriate public education—
comports with reading “relief” to focus on the conduct
the plaintiff complains about. Id. at 752.
We therefore hold that the IDEA’s exhaustion
requirement applies to plaintiffs who seek damages
for the denial of a free appropriate public education.
Because McMillen did not first seek relief through the

15a
IDEA administrative process, this lawsuit was
properly dismissed.
***
The judgment is AFFIRMED.

16a

APPENDIX B

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CHRISTOPHER
EDWARD McMILLEN,
Plaintiff,
VS.
NEW CANEY
INDEPENDENT
SCHOOL DISTRICT
Defendant.

§
§
§
§
§
§ CIVIL ACTION
§ NO. 4:17-CV-2561
§
§
§
§
§

FINAL JUDGMENT
Plaintiff Christopher Edward McMillen (“Plaintiff”)
brought this suit against New Caney Independent
School District alleging:
(a) the deprivation of
Plaintiff’s rights under the United States Constitution
by the assertion of a claim under 42 U.S.C. § 1983;
(b) violations of the Rehabilitation Act of 1973; and
(c) the deprivation of Plaintiff’s rights to “Freedom of
Expression, Freedom of Assembly, Freedom of
Religion, Separation of Church and State, Equal
Protection, and Due Process under the Constitution of

17a
the United States of America.”
(Doc. No. 30.)
Defendant New Caney Independent School District
(“Defendant”) moved to dismiss. (Doc. No. 33.) At a
hearing on May 30, 2018, the Court granted the
motion and dismissed all of Plaintiff’s claims with
prejudice.
Pursuant to Federal Rule of Civil Procedure 58(a),
and for the reasons set forth at the hearing, final
judgment is hereby ENTERED for Defendant New
Caney Independent School District.
IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 30th day of
May, 2018.

HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

18a

APPENDIX C

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
.
.
.
Plaintiffs,
.
.
VS.
.
.
NEW CANEY INDEPENDENT .
SCHOOL DISTRICT, et. al.,
.
.
Defendants.
. . . . . . . . . . . . . . ..
KENNETH WAYNE MC
MILLEN, et. al,

Civil Action No.
H-17-CV-2561
Houston, Texas
May 30, 2018
3:42 p.m.

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE KEITH P. ELLISON
MOTION HEARING
APPEARANCES:
FOR THE PLAINTIFFS:
Mr. Terry P. Gorman
HENSLEE & GORMAN
901 Mopac Expressway South Suite 300
Austin, Texas 78746
972.235.4700
FAX: 512.597.1455
tgorman@school-law.co

19a
FOR THE DEFENDANTS:
Mr. Jonathan Griffin Brush
Mr. Charles Cory Rush
ROGERS, MORRIS & GROVER, LLP
5718 Westheimer Road
Suite 1200
Houston, Texas 77057
713.960.6000
713.960.6017
FAX: 713.960.6025
jbrush@rmgllp.com
crush@rmgllp.com
PROCEEDINGS RECORDED BY
STENOGRAPHIC MEANS, TRANSCRIPT
PRODUCED FROM COMPUTER-AIDED
TRANSCRIPTION
COURT REPORTER:
GAYLE L. DYE, CSR, RDR, CRR
515 Rusk, Room 8016
Houston, Texas
77002
713.250.5582

20a
Page 3
PROCEEDINGS
May 30, 2018
THE COURT: Let’s turn to McMillen versus New
Caney.
Appearances of counsel for McMillen, please.
MR. GORMAN: Terry Gorman, your Honor, from
the Law Offices of Donald Henslee.
THE COURT: Thank you.
MR. BRUSH: Jonathan Brush on behalf of New
Caney Independent School District.
With me is my partner Cory Rush.
THE COURT: Thank you.
Okay. This is a case that has always troubled
me. I think it’s unspeakably sad, which is a different
question from whether there is a cognizable claim for
relief. We do have Defendants’ motion to dismiss the
third amended complaint, and the Defendants get to
go —
You-all can be seated.
Defendants can go first. You can assume I’ve
read your papers.
MR. BRUSH: Thank you, your Honor.
As you’ll recall, this is the second time we’ve
been before the Court —
THE COURT: Yeah, it is. Yeah.
MR. BRUSH: — on the motion to dismiss hearing.
We really have very little to add to what is in the
papers. From

21a
Page 4
Defendants’ perspective, this case is an IDEA claim,
an Individuals with Disabilities Education Act claim,
that is being pled as a Section 1983 claim.
The best evidence and the best indication of
that, your Honor, is the allegations in the third
amended complaint that rely on and complain of a
United States Department of Education investigation
into special education practices in Texas schools.
That is the gravamen of the McMillen’s
complaint at this juncture, is a claim that Chris
McMillen was denied special education services
purportedly, as far as we can glean, in alignment with
the Texas Education Agency’s unwritten policy or
practice of encouraging school districts to only identify
8.5 percent of students as special education students.
Given what Plaintiffs have focused on, they’ve
now revealed that their Section 1983 claim is no
different than their already dismissed ADA and
Section 504 claims which were claims that were
subsumed by the IDEA’s mandatory exhaustion
requirement.
Courts have held that Section 1983 claims
cannot be brought as a way to avoid the IDEA’s
exhaustion requirement. That’s exactly what we have
here. Analytically, we have the exact same issue that
the Court’s already granted dismissal on the Section
504 and the ADA claims.
As a secondary issue, even if the Court were to
Page 5
find that there was a viable exhausted Section 1983
claim, which there is not, the McMillens have failed to

22a
plead the elements of municipal liability.
As the Court well knows, there are stringent
standards of pleading and proof for imposing
municipal liability, one of which is the requirement of
a policy of the governmental entity.
Here, there is no pleading that New Caney
Independent School District had a policy that would
support municipal liability. At best, Plaintiffs point to
a purported policy of the Texas Education Agency. But
review of the report from the Department of Education
attached to the third amended complaint reveals that
nowhere does it mention New Caney Independent
School District.
While the Department of Education’s
conclusions may have some bearing on the identified
school districts that were — where Department of
Education conducted interviews, the Court would
merely have to guess that any such policy existed at
New Caney.
What’s more, there is no dispute that Mr.
McMillen was identified as a student receiving special
education services. So, regardless of the TEA’s rule or
practice, there’s no injury because Mr. McMillen was
already identified.
So, the argument that there was a practice in
the
Page 6
State of Texas to not identify students necessarily,
having already been identified as a special education
student, having already received services, the
McMillens’ avenue for redress was to file a due process
hearing; take it through an administrative hearing;

23a
and, if dissatisfied, bring it to this Court for judicial
review.
Because that was not done, the case is not
justiciable and should be dismissed.
THE COURT: Thank you very much.
MR. GORMAN: Thank you, your Honor.
And first, I would like to thank the Court and
counsel for the rescheduling of this matter as I was
feeling ill.
THE COURT: Not at all. Happy to do it.
MR. GORMAN: That’s very much appreciated.
Your Honor, the difficulty in this case from
getting our hands around it, so to speak, is that there
is so many facts.
THE COURT: There is what?
MR. GORMAN: So many facts and so many issues.
And defense —
THE COURT: I think the facts are very supportive
of your claim. It’s just whether or not it should have
been filed as an IDEA claim. I think what’s happened
to your client is extremely troubling. I have enormous
empathy for him. I wish
Page 7
the world were different, but that’s not quite our issue.
MR. GORMAN: I raise that only to say that the
defense has done a nice job of pointing to all of the
IDEA violations that occurred that, frankly, I don’t
care about except for the following context:

24a
The — after — after our hearing last time, I
spent a lot of time with colleagues and myself working
through these issues, working through these cases.
Justice Kagan didn’t help us out very much with
her tests. All of the cases talk about the gravamen.
The issue that we’ve come up with — and I don’t
remember if I used it last time or not, your Honor. But
the way I’m now viewing these cases and better
understanding them myself is is it a fix-it case or is it
a case for damages?
The whole purpose of IDEA administrative
review is a fix-it case, the IEP isn’t right, the
Behavioral Intervention Program isn’t right, the
student is not being provided this or those services.
That’s not what this case is about.
All of that — IDEA cases, by definition, your
Honor, as we know, does not allow for monetary
damages. Why? Because they’re fix-it cases. The
gravamen of this case is really very simple; and if my
pleading was not artful enough to put it, let me put it
now.
Your Honor, we have a disabled student —
Page 8
THE COURT: Yeah.
MR. GORMAN: — that the school is tired of and
decides to get rid of him. That is the gravamen of this
case. The school — the reason all of the other facts are
relevant is it shows their exhaustion not of remedies
but their exhaustion of dealing with Chris McMillen.
And so, what happens is, as a result of a teacher
that tries to literally save him with Jesus Christ and
fails, she then takes these private journals of him and

25a
calls it a terrorist act. The school then just — then
jumps to the police and the prosecutors; and as we
discussed before, what do they all end up with? He’s
expelled. That is the gravamen of the case.
One of the things Justice Kagan said, after I
went back and read it for the fiftieth time, is take an
example of some other public facility and make the
comparison to see if there is a violation.
So, your Honor, let’s assume this is a public
library. It’s a public library. And Chris McMillen is
in there, and he’s reading. He’s been in there a lot.
Sometimes he rants. Sometimes he raves. Most often,
he just writes in his journals, things that have to do
with him.
Clearly disabled. At some point, the library,
which is a public library, kicks him out. “You are a
terrorist. Look at what you just wrote. You are a
terrorist. Get out of
Page 9
our library. We never want to see you again.” That’s
what Justice Kagan said a better — another example
is to do. And that’s what we have here.
The other issue with regard to the facts, your
Honor, is to show that, even though I don’t think an
administrative remedy is appropriate because it’s not
a fix-it case, we certainly have the basis of futility
here. The futility doctrine, even if administrative
remedies had been appropriate, is clear that it
wouldn’t have mattered.
But the gravamen, the center, of this case is not
an IDEA case. This is not a lawsuit for damages
because of the poor education or the quality. It’s the

26a
result of no education.
broadest sense.

And I mean that in the

THE COURT: Well, is there any support in the case
law for the distinction you want to draw, though?
MR. GORMAN: With regard to which point?
THE COURT: Fix-it case versus damages.
MR. GORMAN: Your Honor, we know by definition
IDEA cases are not — you’re allowed attorney’s fees,
but you’re not allowed monetary damages. And so,
that is the distinction right there.
The other issue is, if you follow — the other
thing that Justice Kagan said is look at whether the
— and this is in Fry — look at whether the parties
were pursuing administrative remedies. I took that to
mean, if they’re
Page 10
pursuing administrative remedies, they are trying to
fix it.
The record here shows that the McMillens did
file grievances.
Those grievances were being
processed, ignored, whatever; but none of them
mattered when they kicked him out. Your Honor, last
week the Defendant’s brother, Pedro, graduated from
this high school. And what was it that Chris told his
parents? With head down looking at them, he said,
“You get to graduate. I didn’t get to.” And what he said
was “The school wouldn’t let me.”
THE COURT: Well, I can’t take note of ex rel record
facts.
MR. GORMAN: I know that, your Honor. But my
point in bringing it up is nobody is complaining about
the quality of education he received prior to the day

27a
that they arranged for his expulsion. This case — the
gravamen of this case has to do with their decision to
work together with the county and make sure that he
never came back.
Thank you, your Honor.
THE COURT: Thank you.
MR. BRUSH: Briefly, your Honor?
THE COURT: Mr. Brush, yes, sir.
MR. BRUSH: With respect to the distinction that
opposing counsel is attempting to draw, your Honor, it
ignores a key element of the IDEA; and that is the
requirement that before a school district can take
disciplinary action against a
Page 11
student who has a disability and is receiving services,
the school district is required to hold a manifestation
determination review.
If the student and family are not satisfied with
the determination, the IDEA permits exhaustion; and
it provides a remedy. If the case is an expulsion case,
as opposing counsel just articulated, it could have been
fixed, if they’re right about the facts, by pursuing the
IDEA’s administrative exhaustion process because the
IDEA expressly provides for a manifestation
determination review, an appeal of an adverse
determination to a state hearing officer and in turn
judicial review of an adverse state hearing officer’s
determination.
This is an IDEA claim. It could have and should
have been brought up through the state
administrative proceedings. The fact that it wasn’t

28a
does not and cannot transform this into a damages
case.
Opposing counsel’s distinction that this is a
damages case misses the mark. It’s only a damages
case because they seek damages for an expulsion
because they did not pursue the administrative
remedy which would have allowed this to be a fix-it
case.
Finally, coming to Fry, expulsion is strictly a
function of school districts. Only students are expelled
from school districts. We know under the suggested
two-part test in Fry that this case is likely to be an
IDEA case; but because of
Page 12
the IDEA’s MDR requirements and the provision of
available relief, Congress’s directive that these issues
first be decided by a state hearing officer who can
bring their expertise to bear to develop a record would
be frustrated if the Court were to allow a damages case
to proceed under these circumstances.
THE COURT: Let me take a minute with my
colleagues. No one need rise. No one need rise.
(In-court recess taken.)
THE COURT: Sit down, everybody.
My law clerk reminds me that most of the
circuits who have ruled on the issue have found that a
prayer for money damages alone is insufficient to
bypass the exhaustion requirement of IDEA.
One Texas case that holds that is Ripple versus
Marble Falls ISD, 99 F.Supp.3d, 662 at 689. I think
that has to be the law; otherwise, you could just
include a prayer for damages and defeat the statutory

29a
framework.
intended.

I don’t think that’s what Congress

This case troubles me a lot. I think the
bureaucracy was not as responsive as it should be. I’m
deeply troubled by the idea that a teacher can force her
religion on a student. That’s — that’s odious to me no
matter how well-intentioned the proselytizer, no
matter what the merits of the religion.
This to me, though, is classically an IDEA case;
Page 13
and I’m afraid I’m going to have to grant the motion to
dismiss under Rule 12(b). I’m very sorry.
(Proceedings concluded at 3:58 p.m.)

CERTIFICATE
I certify that the foregoing is a correct transcript
from the record of proceedings in the above-entitled
matter, to the best of my ability.
By: /s/Gayle L. Dye
09-29-2018
Gayle L,. Dye, CSR, RDR, Date
CRR

30a

APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CHRISTOPHER EDWARD
McMILLEN, AN
INCAPACITATED
PERSON
Plaintiff
vs.
NEW CANEY
INDEPENDENT
SCHOOL DISTRICT
Defendant

§
§
§
§
§
§
§
§
§
§
§
§

C.A. No.
4:17-cv-2561

PLAINTIFF’S THIRD-AMENDED COMPLAINT
Plaintiff
CHRISTOPHER
EDWARD
McMILLEN, AN INCAPACITATED PERSON files
this “Plaintiff’s Third-Amended Complaint” against
the foregoing described Defendant and respectfully
shows as follows:

31a
I. PROCEDURAL NOTE
On January 23, 2018, the Court dismissed the
following two causes of action being asserted by
Plaintiff:
a.

DEPRIVATION OF
CONSTITUTIONAL RIGHTS, and

b.

VIOLATIONS OF SECTION 504.

The Court also granted Plaintiff leave to amend his
complaint for the purpose of elaborating on Plaintiff’s
claim under 42 USC §§ 1983. Although the Court
dismissed the Plaintiff’s causes of action related to
DEPRIVATION OF CONSTITUTIONAL RIGHTS
and VIOLATIONS OF SECTION 504, the assertion of
such causes of action, and the supporting facts, are
included in this amended complaint, to preserve the
record.
II. NATURE OF SUIT
1. CHRISTOPHER
EDWARD
McMILLEN
(defined hereafter as Chris) is an eighteen year old
young man diagnosed with various disabilities. Until
recently, Chris was an active student in the New
Caney Independent School District, which is
Northeast of the Houston area. This is a civil action
for compensatory damages and punitive damages to
redress the blatant, egregious, and often intentional
actions of Defendant New Caney ISD which constitute
(a) the deprivation of Chris’s rights under the United
States Constitution and federal law by the assertion
herein of a claim under 42 USC §§ 1983; (b) violations
of the Rehabilitation Act of 1973, 29 U.S.C. § 791 et

32a
seq.;1 and (c) the deprivation of Chris’s rights to
Freedom of Expression, Freedom of Assembly,
Freedom of Religion, Separation of Church and State,
Equal Protection, and Due Process under the
Constitution of the United States of America.2
III. PARTIES
2. Plaintiff
CHRISTOPHER
EDWARD
McMILLEN, AN INCAPACITATED ADULT
(“Chris”) is an individual residing in Montgomery
County Texas.
Chris lives with his parents,
KENNETH
McMILLEN
(“Ken”)
and
LISA
McMILLEN (“Lisa”).
3. As a result of the actions taken by Defendant
New Caney Independent School District, Chris has
been declared to be an incapacitated adult under
Texas law. Ken and Lisa were appointed to be the
co-guardians of Chris. This action is brought by Ken
and Lisa, as the court appointed co-guardians of their
son, Chris.
4. Defendant NEW CANEY INDEPENDENT
SCHOOL DISTRICT (“New Caney ISD”) is a school
district formed under the laws of the State of Texas
and is located in Montgomery County, Texas.
Defendant New Caney ISD has already been served
with summons in this matter and has made an
appearance herein.

1

This claim for relief was dismissed by the Court on
January 23, 2018.
2

Id.

33a
IV. JURISDICTION AND VENUE
5. This Court has jurisdiction of this dispute as
involving a federal question proceeding arising under
the deprivation of rights granted to Plaintiff Chris
under the United States Constitution and federal law
resulting in the assertion herein of a claim under
42 USC §§ 1983, for such deprivation of rights was
done under the color of law.
6. Venue is proper in the Southern District of
Texas because the events forming the basis of this suit
occurred in this District, and Plaintiff Chris resides in
this District.
V. FACTUAL ALLEGATIONS
7. At the time of the filing of this action, Plaintiff
Chris was an eighteen year old young man diagnosed
with Autism Spectrum Disorder, Emotional
Disturbance, and Learning Disabilities related to his
Central Auditory Processing Disorder (hereafter,
“Chris’s Disabilities”). Until recently, Chris was an
active student in the New Caney Independent School
District, which is Northeast of the Houston area.
8. Plaintiff Chris resides with Ken, his father,
and Lisa, his mother, in Montgomery County, Texas.
Chris was born on February 18, 1999. As a result of
the actions taken by Defendant New Caney ISD, Chris
was recently declared to be an incapacitated adult
under Texas law, with Ken and Lisa declared to be the
co-guardians of Chris.
9. Plaintiff Chris began attending school in the
New Caney ISD in 2003, at the age of 4 being in
Pre-Kindergarten.

34a
10. As a public school district located in the State
of Texas that receives certain funding from the United
State of America, Defendant New Caney ISD is
mandated to implement policies and procedures
assuring that all students (including students with
Chris’s Disabilities) are educated in accordance with
the laws of the United States, including but not being
limited to the Freedom of Expression, Freedom of
Assembly, Freedom of Religion, Separation of Church
and State, Equal Protection, and Due Process clauses
under the Constitution of the United States of America
(“Constitutional Rights”), and, the Rehabilitation Act
of 1973, 29 U.S.C. § 791 et seq. (“Section 504”). For the
purposes hereof, Chris’s’ Constitutional Rights, his
rights under Section 504, and any regulations enacted
pursuant to such laws shall be collectively referred to
as the “Laws Protecting Chris.”
11. While detailed in nature, the Laws Protecting
Chris exist for the purposes:
(a) of preventing violations of Chris’s
Constitutional Rights and other federal
laws;
(b) of insuring the delivery to Chris of a
free, public education; and
(c) of protecting Chris from discrimination
due to Chris’s Disabilities.
12. As acknowledged by Defendant New Caney
ISD, Chris is a highly intelligent young man.
13. In accordance with other laws, Defendant New
Caney ISD also had the responsibility of developing an
individualized education program (“IEP”) for Chris
which would provide Chris with a safe, non-hostile
educational environment; complete with modifications

35a
and accommodations geared toward Chris’s
Disabilities; including safe, meaningful access to
programs; designed to prevent or remedy harassment
by other students.
14. Chris’s behavioral challenges were being
managed with specified behavioral interventions
adopted during prior IEPs.
15. On August 28, 2015, Defendant New Caney
assembled a team of purportedly qualified and trained
individuals (hereafter, “IEP Team”) to conduct a
review of the then most recent evaluations of Chris
and Chris’s Disabilities.
16. For reasons unknown, Defendant New Caney
ISD offered a woefully inadequate and intentionally
indifferent IEP for Chris (hereafter, the “August 2015
IEP”).
17. The August 2015 IEP was Defendant New
Caney ISD giving up on Chris.
18. Rather than developing and implementing a
revised personalized IEP for Chris, Defendant New
Caney ISD adopted the August 2015 IEP, which
abandoned what had been working, including but not
being limited to the specified behavioral interventions.
19. Defendant New Caney ISD’s August 2015 IEP
failed Chris in all respects.
20. Defendant New Caney ISD’s adoption of the
August 2015 IEP represented negligence, professional
negligence and misjudgment, deliberate indifference,
and malice towards Chris.
21. Through Defendant’s actions of negligence,
professional
negligence
and
misjudgment,
professional bad faith/gross misjudgment, deliberate

36a
indifference, and malice, Defendant New Caney ISD
failed to provide a meaningful and successful IEP for
Chris.
22. Rather, the August 2015 IEP was nothing more
than Defendant New Caney ISD and the IEP Team
proverbially throwing up their hands and declaring we
are tired of dealing with Chris-Twelve years of putting
up with him is enough.
23. Ken and Lisa challenged and protested the
August 2015 IEP by pursuing administrative
complaints and grievances with Defendant New
Caney ISD.
24. All such grievance and protest efforts by Ken
and Lisa were to no avail, as Defendant New Caney
ISD refused to modify the August 2015 IEP.
25. Coinciding with Chris’s failed August 2015
IEP, Defendant New Caney ISD assigned Chris to a
Junior English class. Working as a teacher for
Defendant New Caney ISD and acting within her
scope of employment, Margaret Angela Hudman
(“Hudman”) became Chris’s English teacher.
26. Chris’s life would never be the same.
27. Although Hudman has no professional training
as a psychologist and notwithstanding that Hudman
was an employee of Defendant New Caney ISD,
Hudman took it upon herself to attempt to save Chris,
both in the religious and behavioral contexts.
28. Hudman’s proselytizing efforts towards Chris
were a push to Christianity. Hudman apparently
believed that if Chris became a Christian, or at least
understood the doctrines of Christianity, Chris would
be liberated from Chris’s Disabilities.

37a
29. Hudman’s informal psychology sessions with
Chris were likewise efforts to free Chris of Chris’s’
disabilities.
30. For
the
purposes
hereof,
Hudman’s
proselytizing and psychological efforts will be
hereafter collectively referred to as “Hudman’s
Interference”).3
31. Hudman’s Interference was not solicited by
Chris, Ken, or Lisa.
32. Hudman’s Interference was done under the
guise of Chris’s Junior English class, but was certainly
not a part of the August 2015 IEP.
33. Hudman’s Interference was also extremely
harmful to Chris.
34. With no regard for, and even because of, Chris’s
Disabilities and as a result of the August 2015 IEP,
and various strategies developed as part of Chris’s
behavioral intervention plan (which was grossly
outdated at that time), Hudman’s Interference
continued.
35. However, after a time, and with no regard for,
and even, because of, Chris’s Disabilities, Hudman
unilaterally determined that Chris was incapable of
being saved and decided to have Chris ostracized from
his school and education.

3 Hudman also apparently believes that Autism can be cured
by taking Kyani, a purported herbal supplement that Hudman
happens to sell. Quoting Hudman: “If you have a child with
ADHD or Autism, or any other issue, I want you to try
Kyani! Get them off those meds-that have horrible side
effects-and get them on natural vit and minerals!!! What
could it hurt to try? ”

38a
36. Hudman decided that since Chris could not be
saved, Chris should be exiled and cast out by
physically removing Chris from Defendant New Caney
ISD’s school system.
37. The vehicle Hudman would use to initiate the
subsequent exile of Chris would be alleged threats to
harm others.
38. As Chris’s Junior English teacher, Hudman
began literary writing and dialogue sessions with
Chris related to views on humanity and the general
human condition.
39. Chris participated in Hudman’s writing and
dialogue sessions, not knowing that Hudman was
collecting the content of such sessions and planned on
using such content against Chris.
40. The topics that Hudman delved into with Chris
included:
(a) the purpose of life;
(b) gods and goddesses;
(c) Christianity;
(d) Religion in general;
(e) Chris’s life goals and plans;
(f) Chris’s visit with his biological mother;
(g) Chris’s dating experiences;
(h) Karma and fate;
(i) pain, anguish, and death; and
(j) even Chris’s future incarceration.
For the purposes hereof, the foregoing shall be
collectively referred to as the “English Assignments.”

39a
41. Nor was Hudman constrained by Chris’s rights
of privacy, as Hudman reached out to other teachers
within Chris’s school and began openly discussing
Chris.
42. By mid-September of 2015, Hudman decided
that she had enough material and content to move
forward in her effort to exile Chris. Upon information
and belief, Hudman’s disdain for Islam and Muslims
might also been in-play as to her actions against Chris.
The year prior, Chris, as part of a self-designed social
experiment, announced to his school teachers and
friends that he had adopted Islam. Chris would ask to
be excused from class so he could recite his afternoon
prayers to Allah. Based on Hudman’s various social
media posts, Hudman clearly appears to be anti-Islam
and anti- Muslim.
43. On September 15, 2015, Hudman sent an email
(marked “Urgent email!!! PLEASE READ NOW”
(hereafter, “Hudman’s Initial Email”), wherein
Hudman began telling anyone who would listen, that
“[Chris] poses a threat to the students and Faculty of
New Caney ISD.”
44. Beginning with Hudman’s Initial Email,
Hudman began sharing out of context snippets of what
Chris had discussed with Hudman during Chris’s
English Assignments. For the purposes hereof, the
Initial Email and the referenced snippets shall be
collectively referred to hereafter as the “Lies.”
45. Hudman’s Initial Email was sent directly to
Principal David Wayne Loyacano (“Loyacano”),
Monique Yvonne Richardson Moss (“RichardsonMoss”) one of Chris’s school counselors, and staff
members at Chris’s school. Then, Loyacano brought

40a
in Bridgett Ann Heine (“Heine”), being an assistant
principal at Chris’s school, and Dianne Elizabeth
Gillis (“Gillis”) an associate school psychologist. For
the purposes hereof, Loyacano, Hudman, Heine,
Richardson-Moss, and Gillis shall be collectively
referred to as the “Gang of Five.”
46. Instead of properly evaluating the Lies within
the appropriate parameters of Chris’s Disabilities, the
Gang of Five began working in concert to permanently
exile Chris from his school, not only in spite of Chris’s
Disabilities, but because of Chris’s Disabilities. For
the purposes hereof, the actions of the Gang of Five to
exile Chris from his school shall be collectively
referred to hereafter as “Illegal Expulsion.”
47. If the Gang of Five succeeded with their Illegal
Expulsion of Chris, not only would the Gang of Five
and Defendant New Caney ISD be freed from their
respective individual and collective responsibilities
owed to Chris because of Chris’s Disabilities, but all of
the past failures, negligence, and intentional acts of
Defendant New Caney ISD, the IEP Team, and the
Gang of Five would be forever swept under the
proverbial rug.
48. Upon information and belief, the Illegal
Expulsion was also being pursued in retaliation for
Ken and Lisa’s continued efforts to force Defendant
New Caney ISD to handle Chris properly.
49. To start the Illegal Expulsion, the Gang of Five
took the Lies and transformed the Lies into a false
assessment that Chris was threatening to harm others
(“False Assessment”).
50. Next, the Gang of Five, acting as employees of
Defendant New Caney ISD, filed criminal charges

41a
(“False Charges”) with the New Casey ISD Police
Department within Defendant New Caney ISD.
51. Acting on the False Charges, the New Caney
ISD Police Department had Chris arrested and
charged with the felony of making a terrorist threat
(“False Terrorist Threat”).
52. After being arrested and held in custody for
three days at the Montgomery County Juvenile
Detention Center as a result of the False Terrorist
Threat, Chris was released pending a final hearing.
53. Defendant New Caney ISD and the Gang of
Five had succeeded with the first step of the Illegal
Expulsion of Chris. However, Defendant New Caney
ISD and the Gang of Five wanted to insure that Chris
would never return to his school.
54. By then declaring the False Charges and the
False Terrorist Threat to be a conduct violation,
Defendant New Caney ISD and the Gang of Five
maliciously decided that Chris should spend the rest
of his school years separated and exiled to an
alternative campus, not only in spite of Chris’s
Disabilities, but because of Chris’s Disabilities.
55. Notwithstanding that applicable laws require
that a student with identified disabilities (such as
Chris) must have a manifestation determination
review (“MDR”) prior to the institution of additional or
extreme discipline, Defendant New Caney ISD and the
Gang of Five refused to hold an MDR, or any other
required hearings and assessments, to review Chris’s
proposed sentence to an alternative campus (“School
Jail”).
56. Beginning when Ken and Lisa were informed
of the False Report, Ken and Lisa began a frantic effort

42a
to work with Defendant New Caney ISD to resolve the
issues between Defendant New Caney ISD and Chris.
57. Conversations, phone calls, and meetings were
held between Ken and Lisa, and, Defendant New
Caney ISD. However, Defendant New Caney ISD
would not budge: Chris was going to spend the rest of
his school years at School Jail.
58. Defendant New Caney ISD, however, had yet
another malicious step to inflict Chris Ken, and Lisa.
59. On September 18, 2015, Defendant New Caney
ISD, acting through Hudman, filed an outrageous,
false, malicious, and unfounded complaint with Texas
Child Protective Services (“CPS”) with regards to Ken
and Lisa’s care of their son Chris.
60. Such complaint was quickly reviewed and
closed by CPS, but more harm had been done to
Plaintiff.
61. On or about October 2, 2015, Ken filed an
extensive set of grievances (“Grievances”) with
Defendant New Caney ISD, such Grievances being
incorporated herein by reference for all purposes.
62. Wherever possible, the individual members of
the Gang of Five also did their respective parts to
insure Chris was never returning to school.
63. While pursuing civil relief from Defendant New
Caney ISD, Ken and Lisa were also doing everything
possible to resolve the False Terrorist Threat and the
felony criminal charge. Once again, Defendant New
Caney ISD did all they could to use the criminal charge
of a False Terrorist Threat against Chris.

43a
64. On October 30, 2015, the Montgomery County
Attorney’s Office dropped all criminal charges against
Chris, provided, that Ken and Lisa:
(a) never re-enroll Chris into school
with Defendant New Caney ISD;
and
(b) personally provide Chris with all
mental health treatment that Chris
may hereafter need with regard to
Chris’s Disabilities.
Hereafter, the “Extorted Deal.”
65. With the Extorted Deal being the only remedy
that Ken and Lisa believed existed, Ken and Lisa
ceased all efforts to return Chris to school within the
New Caney ISD and have been trying to provide for
Chris’s mental health on their own.
66. Defendant New Caney ISD, and the Gang of
Five had succeeded with the Illegal Expulsion.
67. In part, Defendant New Caney ISD has:
(a) deprived Chris of completing his next
two years of education at the New
Caney ISD;
(b) deprived Chris of his
expression and assembly;

rights

of

(c) deprived Chris of his substantive and
procedural due process rights;
(d) intentionally harmed Chris, not only in
spite of, but because of, Chris’s
Disabilities;

44a
(e) failed to maintain Chris’s privacy (as
verified by a separate investigation by
the Texas Education Agency);
(f) failed to alert the appropriate public
authorities of Chris’s Disabilities (as
verified by a separate investigation by
the Texas Education Agency);
(g) failed to comply with record-keeping
requirements as to Chris (as verified by
a separate investigation by the Texas
Education Agency); and
(h) failed to protect Chris from Hudman’s
religious proselytizing.
Hereafter, collectivity the “Deprivation of Chris’s
Rights.”
68. The Deprivation of Chris’s Rights, caused by
Defendant New Caney ISD, is singularly, solely, and
uniquely in spite of, and a direct result of, Chris’s
Disabilities and is an absolute violation of the Laws
Protecting Chris.
69. As a direct result of the Deprivation of Chris’s
Rights, Chris’s mental health deteriorated to such an
extent, that Chris was no longer able to care for
himself.
70. With Chris having turned 18 years of age, Ken
and Lisa were required to proceed with the
appointment of co-guardians for Chris.
71. As a result of Defendant New Caney ISD’s
Deprivation of Chris’s Rights, Chris could easily
remain a ward for the rest of his adult life, improperly:
(a) denying Chris of the ability to live an
economically productive life, providing

45a
for himself and in later years, for his
parents Ken and Lisa;
(b) denying Chris the joys of expression of
assembly;
(c) denying Chris the abilities to live as a
full and independent adult;
(d) denying Chris the consortium of his
parents Ken and Lisa; and
(e) denying Ken and Lisa the consortium
of their loved son, Chris.
72. Although threatening criminal prosecution in
order to aid a civil remedy is a form of extortion,
Defendant New Caney ISD and the Gang of Five
apparently believe that such tactics are acceptable and
appropriate even for someone with Chris’s
Disabilities.
73. On September 21, 2015 (prior to the Extorted
Deal to never return Chris to the New Caney ISD),
Ken was discussing (with Heine) the logistics of
possibly returning Chris to school. Speaking for the
Gang of Five as well as Defendant New Caney ISD,
Heine told Ken: “if you return Chris to this school, [we]
will just pursue additional charges.”
74. As superintendent of Defendant New Caney
ISD, Ken Franklin (“Franklin”) was required to insure
that Defendant New Caney ISD followed the Laws
Protecting Chris. Franklin was also required to act
and to ensure that school employees act, to rectify any
deprivation of due process or deprivation of any other
rights which attach to students within the New Caney
ISD, when said deprivation is caused by such school
district. Clearly Franklin failed in all respects as to

46a
Chris (including but not being limited to his allowance
of the Gang of Five to harm Chris).
75. Defendant New Caney ISD’s and the Gang of
Five’s Deprivation of Chris’s Rights and the Illegal
Expulsion were acts of negligence, gross negligence,
and a reckless disregard for the harm inflicted upon
Chris.
76. Chris has irrevocably been harmed as a result
of the Deprivation of Chris’s Rights and the Illegal
Expulsion.
77. As co-guardians of Chris, Ken and Lisa are
asserting Chris’s right to seek redress and damages
from Defendant New Caney ISD.
78. To protect the rights created by the Laws
Protecting Chris, Chris was forced to engage an
attorney and pursue this action.
79. By filing this action and electing to seek
damages against Defendant New Caney ISD, Plaintiff
is foregoing the right to proceed with individual
actions against the Gang of Five and Superintendent
Franklin.
80. Recently made public by the United States
Department of Education is a decade long, coordinated
effort by the Texas Education Agency (“TEA”) and
public school districts within the State of Texas to
unlawfully suppress (a) the number of students in
Texas receiving assistance under Section 504 and the
Individuals With Disabilities Education Act of 2004,
20 U.S.C. § 1400 et seq. (hereafter, the “IDEA”), and
(b) the level of services under Section 504 and the
IDEA. A complete copy of the January 11, 2018 Letter
and Report is attached hereto as Exhibit “A” and is

47a
incorporated herein by reference for all purposes
(hereafter, “DE Report”).
81. According to the DE Report, the referenced
repression began in 2004 and continued unabated
through 2016 (hereafter, the “TEA and Districts
Suppression Efforts”). The entirety of Plaintiff Chris’
high school years attending Defendant New Caney
ISD fall within the time period of the TEA and
Districts Suppression Efforts.
82. Without discovery efforts through this
proceeding, Plaintiff Chris has no means whatsoever
to definitively determine whether (a) Defendant New
Caney took part in the TEA and District Suppression
Efforts; (b) how entailed such Suppression Efforts
might have been, and (c) whether Chris was a victim
of such Suppression Efforts. However, such limitation
does not mean that Plaintiff Chris’s time with
Defendant News Caney ISD does not offer key
indicators.
83. Because
Plaintiff’s
Second-Amended
Complaint was not seeking relief under the IDEA, the
Factual Allegations contained therein focused
primarily on issues related and leading up to the
Illegal Expulsion, the Extorted Deal, and the
Deprivation of Chris’s Rights. The same is true with
regards to the factual assertions set forth in the prior
paragraphs of this Third-Amended Complaint.
84. With the knowledge that Plaintiff Chris might
have been a victim of the TEA and Districts
Suppression Efforts, additional factual allegation
become relevant with regards to Chris and his time
with Defendant New Caney ISD beginning with the

48a
2014 school year and extending through the Extorted
Deal in the Fall of 2016.
85. With a focus on actions by Defendant New
Caney ISD that were violations of Plaintiff Chris’s
rights under the IDEA (which is now herein deemed to
be included in the previously defined term of Laws
Protecting Chris), the depth of the Deprivation of
Chris’s Rights is staggering.
86. The 2014–2015 school year for Plaintiff Chris
(while attending the New Caney High School, owned
and operated by Defendant New Caney ISD) was a
difficult and revealing year.
Plaintiff Chris’s
Admission, Review, and Dismissal (“ARD”) committee
met three separate times because of behavioral
manifestations of Chris’s Disabilities.
87. Because of the apparent difficulties that
Defendant New Caney ISD was having coping with
Chris’s Disabilities, in January 2015, Defendant New
Caney ISD admitted Chris into its “Pass Program.”
88. The Pass Program is designed to:
“Work… with student who have demonstrated
either serious emotional disturbance or behavior
disorders (and who have not responded to less
intensive interventions…”
In doing so, Defendant New Caney ISD was
acknowledging that Chris’s Disabilities were severe.
89. At the end of the 2014–2015 school year, a full
psyche evaluation, complete with a Functional
Behavior Assessment, was performed on Plaintiff
Chris by Defendant New Caney ISD in an attempt to
determine how to manage Chris’s Disabilities and
challenging behavior. One of the conclusions of such

49a
evaluation was that Plaintiff Chris’s participation in
the Pass Program was actually causing Chris to
self-mutilate, a manifestation that resulted in Chris’
hospitalization in May of 2015.
90. With Defendant New Caney ISD determining
that Plaintiff Chris’s continuation in the Pass
Program would be mentally and physically harmful to
Plaintiff, Defendant New Caney ISD had three
meaningful choices on how to proceed with Chris at
the beginning of the 2015–2016 school year:
a.

continue with Chris in the Pass
Program;

b.

locate a private placement for Chris; or

c.

explore other solutions with persons
qualified
to
manage
Chris’s’
Disabilities.

91. Most unfortunately for Plaintiff Chris,
Defendant New Caney ISD selected to simply return
Chris to New Caney High School and continue with
the same obviously ill-trained and disqualified
professions that had been unable to manage Chris
during the 2014–2015 school year, notwithstanding
that the reports viewed by Plaintiff Chris’s ARD
committee in August 2015 showed that: threats of
Chris harming himself and others had increased
from 2 to 3 times every nine weeks, to threats then
being made daily.
92. After an entire school year (2014–2015) of
attempting to manage Plaintiff Chris’s serious
emotional disturbance and serious behavior disorder,
Defendant New Caney ISD decided to take Chris out
of a program that was “designed to work with students
who have demonstrated either serious emotional

50a
disturbance or behavior disorders, the Pass Program,
and return him to the care of professionals that had
already proven their inability to manage Chris’s
Disabilities.
93. As explained by Ken, Plaintiff Chris’s father:
“Chris can be likened to a can of gasoline.
His behavior is quite explosive and without
the proper qualified supervision, the can will
explode without warning. Once the fire
starts, it is difficult or impossible to
extinguish. All persons involved will need to
step back and stay away from the flames.
Attempting to snuff out the fire usually
results in spreading the flames and
increasing the damage. Chris’s explosive
behavior has no off switch, and most
conventional techniques to calm a person
that is overwhelmed prove useless.
Every day that Plaintiff Chris went to school at New
Caney High School, the “gas can” was passed from Ken
and Lisa’s supervision to the ill-trained supervision
provided by Defendant New Caney ISD.
94. During those first few weeks and months of the
2015–2016 school year:
a.

Defendant New Caney ISD presented
Chris with persons he had never met,
but
offered
no
protocols
for
transitioning
a
psychologically
complicated special needs students like
Plaintiff Chris from old to new
personnel;

b.

Plaintiff Chris disobeyed his required
escort rule and bolted from class

51a
without permission, but there was no
one from Defendant New Caney ISD to
stop him from leaving the classroom;
c.

Chris’s emotional outbursts increased,
unabated by Defendant New Caney
ISD;

d.

Chris’s threats to himself and others
occurred daily;

e.

As previously described, Defendant
New Caney ISD abandoned Chris’s
IEP;

f.

Defendant New Caney ISD failed to
update Plaintiff Chris’s Behavioral
Intervention Plan;

g.

Defendant New Caney ISD failed to
amend
Plaintiff
Chris’s
IEP
qualifications as directed by New
Caney ISD personnel the prior school
year;

h.

When Hudman did contact Ken and
Lisa to express her concerns about
Chris, Ken and Lisa warned her that
(a) Chris’s Disabilities were very
complicated, and (b) she (Hudman)
should avoid explosive topics such as
religion and politics;

i.

However, Hudman stated that: she felt
self-qualified due to her dealing with a
nephew “with the same conditions” and
the Hudman Interference continued
unabated by Defendant New Casey
ISD;

52a
j.

Predictably, on September 15, 2015,
Plaintiff
Chris
erupted
with
inappropriate threatening words;

k.

Although the federal regulations
contained within the Laws Protecting
Chris require the evaluation of a
behavioral event, to the relationship of
the individual’s disabilities (the
previously defined MDR) before any
discipline is administered, Defendant
New Caney ISD refused to perform an
MDR for Chris;

l.

Instead, Defendant New Caney ISD
proceeded with the Lies and the False
Assessment;

m. Although federal law mandated
Defendant New Caney ISD to
determine if Chris’s’ Disabilities
prevented Chris from understanding
the wrongfulness of the aggrieved
behavior, Defendant New Caney ISD
refused to even inform Chris of what
was happening;
n.

Hudman falsified documents to create
the worst possible scenario for Chris;

o.

Hudman altered documents;

p.

Defendant New Caney ISD coordinated
with law enforcement authorities to
have Chris arrested, spend three nights
in jail, and be charged with felony
terrorist charge;

53a
q.

Defendant New Caney ISD failed to
inform
such
law
enforcement
authorizes of Chris’s Disabilities;

r.

Defendant New Caney ISD proceeded
with its Illegal Expulsion of Plaintiff
Chris;

s.

Defendant New Caney ISD coordinated
with law enforcement authorities to
push for the Extorted Deal, agreed to
by Ken and Lisa under duress and
threats of additional criminal charges
being filed by Defendant New Caney
ISD;

t.

Defendant New Caney ISD allowed
Plaintiff Chris’s confidential psyche
evaluation to became the “gossip” of the
educators and staff at New Caney High
School;

u.

Defendant New Caney ISD ignored the
Grievances filed by Ken and Lisa; and

v.

On numerous occasions, Defendant
New Caney ISD wrongly withheld
public documents requested by Ken
and Lisa.

For the purposes hereof, the foregoing shall be
collectively deemed herein to be included in the
previously defined term of Deprivation of Chris’s
Rights.
95. In essence, Defendant New Caney did
everything possible to ignite the “gas can” and nothing
to safely extinguish the resulting explosion.

54a
96. By allowing the “gas can” to explode,
Defendant New Caney ISD has caused irreparable
damage to the can and those around the can. One
cannot get the gas back in the fragments of the can, for
the can is not even a can anymore.
97. The harm inflicted upon Plaintiff Chris by
Defendant New Caney ISD has caused irreparable
harm to Chris.
98. Because of the trauma caused by the
Defendant New Caney ISD’s Deprivation of Chris’s
Rights, Plaintiff Chris now suffers from severe
agoraphobia, PTSD symptoms, lacks any level of trust,
and is unable to sleep. When consulting with Chris
mental health professionals who knew Chris before
the Deprivation of Chris’s Rights, Ken and Lisa were
informed that Chris may not even be “fixable” at this
point.
99. As a result of a complaint filed with TEA by
Ken, the TEA conducted an investigation into some of
the actions of Defendant New Caney ISD with regards
to certain of the issues comprising some of Defendant
New Caney’s Deprivation of Chris’s Rights
100. In a June 27, 2017 Investigative Report issued
by TEA, TEA concluded that certain aspects of
Defendant New Caney ISD’s handling of Chris were
violations of some of the Laws Protecting Chris.
101. The Deprivation of Chris Rights by Defendant
New Caney ISD and the resulting violations of the
Laws Protecting Chris were committed by persons
acting under the cover and color of law, within their
respective scope of employment by New Caney ISD.
Further such Deprivation was the result of either
(a) intentional acts to harm Plaintiff Chris, or (b) a

55a
reckless, evil, and obvious wanton disregard of the
outcome and harm to Chris.
102. There were numerous participants in
Defendant New Caney ISD’s Deprivation of Chris’s
Rights: the Gang of Five; the members of Chris’s ARD
Committee; those persons responsible for the denial of
the Grievances filed by Ken and Lisa; the unknown
staff members who facilitated such Deprivation, and
the as yet unnamed New Caney ISD administrators
and trustees that approved such Deprivation, or
allowed such Deprivation.
103. As for the complicity of Defendant New Caney
ISD’s involvement with the Extorted Deal, there can
be no doubt. Why would a prosecutor make any
demands or conditions for a student to be barred from
a public school, without first having discussed and
coordinated such condition and demand with the
school district itself?
104. Considering the breadth, swiftness, singleminded focus, and complexity of Defendant New
Caney’s ISD’s Deprivation of Chris’s Rights, how else
could such actions have occurred if not:
(a) as the direct result of the execution of
official “customs” and/or “policies”
(“Customs & Policies”) of Defendant
New Caney ISD;
(b) approved or sanctioned by the New
Caney ISD Board of Trustees; and
(c) executed (by the final policymaker
within Defendant New Caney ISD)
with deliberate indifference towards
the harm that would be inflicted upon
Plaintiff Chris.

56a
Further, the Customs & Policies were clearly the
moving force behind the of Deprivation of Chris’s
rights under the Laws Protecting Chris.
105. Educating Chris had become too difficult for
Defendant New Caney ISD, or, too expensive, or both.
106. The driving force of the TEA and Districts
Suppression Efforts can have been only to save money,
by artificially and illegally limiting the number of
students and the level of services within IDEA and
Section 504 programs in the State of Texas.
107. In paragraph 10 of
Complaint, it was noted that:

this

Third-Amended

As a public school district located in the
State of Texas that receives certain funding
from the United State of America, Defendant
New Caney ISD is mandated to implement
policies and procedures assuring that all
students (including students with Chris’s
Disabilities) are educated in accordance with
the laws of the United States, including but
not being limited to the Freedom of
Expression, Freedom of Assembly, Freedom
of Religion, Separation of Church and State,
Equal Protection, and Due Process clauses
under the Constitution of the United States
of America, and, the Rehabilitation Act of
1973, 29 U.S.C. § 791 et seq.
The policies adopted by the New Caney ISD Board of
Trustees parallel such mandate.
108. No doubt, Defendant New Caney ISD will
assert that “Plaintiff Chris has no proof that the New
Caney ISD Board of Trustees directed or otherwise
allowed employees of Defendant New Caney ISD to

57a
deviate from adopted policies and proceed with the
Deprivation of Chris’s Rights. Can Plaintiff, at this
time, point to a piece of paper, a verbal directive, or a
head turned away that directed or otherwise allowed
employees of Defendant New Caney ISD to proceed
with the Deprivation of Chris’s Rights-No, not yet.
What is indisputable, however, is that no one within
the New Caney ISD or its Board of Trustees took any
actions to prevent such Deprivation.
109. The DE Report indicates that thousands of
students in the State of Texas were illegally deprived
rights and services under the IDEA and Section 504 as
a result of the TEA and Districts Suppression Efforts.
Is it really that far fetched to believe that Defendant
New Caney ISD’s Deprivation of Chris’s Rights was
not a result or al least influenced by the TEA and
Districts Suppression Efforts?
110. Defendant New Caney ISD chose to label and
view Plaintiff Chris as a horrible, potentially harmful
person that need to be sent away, solely because of
Chris’s Disabilities. Yet, in our society, we know
that…gas cans are not at fault when they
explode…only those charged with monitoring the can
for safety are to blame.
111. All conditions precedent to Plaintiff bringing
Plaintiff Chris asserting these claims have been met.
VI. PLAINTIFF’S CAUSES OF ACTION
112. Plaintiff incorporates by reference the facts set
forth in Article V: GENERAL BACKGROUND hereof.

58a
1. DEPRIVATION OF CONSTITUTIONAL
RIGHTS4
113. The actions of Defendant New Caney ISD (as
set forth in Article IV of this Complaint) including but
not being limited to the Deprivation of Chris’s Rights
and the Illegal Expulsion, are violations by Defendant
New Caney ISD of Plaintiff’s Freedom of Expression,
Freedom of Assembly, Freedom of Religion,
Separation of Church and State, Equal Protection, and
Due Process under the Constitution of the United
States of America.
114. Plaintiff has been harmed by such actions of
Defendant New Caney ISD, and Plaintiff now seeks all
actual and consequential damages available to
Plaintiff for same.
2. VIOLATIONS OF SECTION 5045
115. The actions of Defendant New Caney ISD (as
set forth in Article IV of this Complaint) including but
not being limited to the Deprivation of Chris’s Rights
and the Illegal Expulsion, are violations by Defendant
New Caney ISD of the rights granted Chris under
Section 504 of the Rehabilitation Act of 1973,
29 U.S.C. § 791 et seq.
116. Plaintiff has been harmed by such actions of
the Defendant New Caney ISD, and Plaintiff now
seeks all actual and consequential damages available
to Plaintiff for same.

4

This claim for relief was dismissed by the Court on
January 23, 2018.
5

Id.

59a
3. SECTION 1983 CLAIM
117. Section 1983 of Title 42 of the United States
Code provides, in part,:
“Every person who under color of any
statute, ordinance, regulation, custom, or
usage, of any State…subjects, or causes to be
subjected, and citizen of the United
States…to the deprivation of any rights,
privileges, or immunities secured by the
Constitution and laws, shall be liable to the
part injured in an action at law, suit in
equity, or other proper proceeding for
redress…”
118. Defendant New Caney ISD’s Deprivation of
Chris’s Rights under the color of law resulted in the
violation of Chris’ rights under the United States
Constitution and federal laws. Plaintiff Chris was
severely damaged (economically, physically, and
emotionally) as a direct result of such Deprivation.
Therefore, Plaintiff Chris asserts a claim for damages
and other relief as provided for under 42 USC §§ 1983.
4. POST JUDGMENT INTEREST
119. Plaintiff also requests post judgment interest
as may be allowed by the prevailing jurisprudence.
5. EXEMPLARY DAMAGES
120. The actions of Defendant New Caney ISD are
of such a nature that Plaintiff is entitled to exemplary
damages as allowed by 42 USC §§ 1983, for which
Plaintiff now seeks.

60a
6. ATTORNEYS’ FEES
121. Plaintiff is entitled to recover reasonable and
necessary attorney fees under the Laws Protecting
Chris, and Plaintiff hereby requests same.
VII. JURY
122. Plaintiff has previously requested a jury and
paid the required fee.
VIII. CONCLUSION
123. Plaintiff
CHRISTOPHER
EDWARD
McMILLEN, AN INCAPACITATED PERSON now
asks that upon final trial hereof, that judgment be
entered in favor of Plaintiff, that all costs of Court be
taxed against Defendant New Caney ISD, that
Plaintiff recover all direct, consequential, and
exemplary damages (upwards of $5 Million dollars) as
allowed by law, that Plaintiff recover his attorneys’
fees, and that Plaintiff have such further and other
relief, general and special, both at law or in equity, to
which he may show himself to be justly entitled.
Respectfully submitted,
Law Offices of Donald G. Henslee
By:

s/Terry P. Gorman ___________________
Terry P. Gorman, Esq.
Texas Bar No. 08218200
tgorman@school-law.co
901 Mopac Expressway South, Suite 300
Austin, Texas 78746
Telephone: (972) 235-4700 (tpg Direct)
Telecopier: (512) 597-1455
COUNSEL FOR CHRISTOPHER
EDWARD McMILLEN, AN
INCAPACITATED PERSON

61a
CERTIFICATE OF SERVICE
I hereby certify that on this 2nd day of February
2018, I electronically filed the foregoing instrument
with the Clerk of the Court using the CM/ECF system,
which will send notification of the filing to the
following:
Jonathan G. Brush
C. Cory Rush
Rogers, Morris & Grover, L.L.P.
5718 Westheimer, Suite 1200
Houston, Texas 77057
(Via CM/ECF notification)
s/Terry P. Gorman, Esq
Terry P Gorman, Esq.

62a
EXHIBIT ‘A’
TO
PLAINTIFF’S THIRD-AMENDED COMPLAINT

63a
UNITED STATES
DEPARTMENT OF EDUCATION
OFFICE OF SPECIAL EDUCATION AND
REHABILITATION SERVICES

January 11, 2018
Honorable Mike Morath
Commissioner
Texas Education Agency
1701 N. Congress Ave.
Austin, Texas 78701
Dear Commissioner Morath:
This letter is to provide you with a summary of the
results of the Office of Special Education Program’s
(OSEP) monitoring visit in Texas during the week of
February 27, 2017. The visit was prompted by reports
about the declining identification rate in Texas of
children with disabilities under the Individuals with
Disabilities Education Act (IDEA). As data from the
Texas Education Agency (TEA) demonstrates, the
number of children identified as children with
disabilities under the IDEA significantly declined
from the 2003–2004 to 2016–2017 school years from
509,401 to 477,281 students. While this represents a
decrease of over 32,000 students, this decline is
noteworthy given that during those same years, the
total enrollment in Texas schools grew from 4,328,028
to 5,359,127 – an increase of 1,031,099 students.1
1 This information is provided through TEA’s enrollment trend

reports, available at: http://tea.texas.gov/acctres/Enroll_200304.pdf and http://tea.texas.gov/acctres/enroll_2016-17.pdf.

64a
Additionally, during this time period, Texas
implemented a special education representation
indicator in its Performance-Based Monitoring and
Analysis System (PBMAS) to measure the percentage
of students enrolled in special education and related
services in an Independent School District (ISD)
against a standard of 8.5 percent (8.5 percent
indicator). Consequently, OSEP was interested in
determining the extent to which the 8.5 percent
indicator contributed to, or influenced, the
identification and evaluation of children with
disabilities under the IDEA.
Section 616 of the IDEA requires the U.S. Department
of Education (Department) to monitor States with a
focus on:
(1) improving educational results and
functional outcomes for all children with disabilities;
and (2) ensuring that States meet the program
requirements, particularly those most closely related
to improving educational results for children with
disabilities. One of these requirements is child find,
described below.
The results of this monitoring visit were based on the
following information:




2

TEA’s November 2, 2016 response to OSEP’s
October 3, 2016 letter regarding OSEP’s
concerns with Texas’s PBMAS 8.5 percent
Indicator;2
Feedback from parents of children with
disabilities and other interested parties at five

Both letters are available on the Office of Special Education
and
Rehabilitative
Services’
(OSERS)
website:
https://www2.ed.gov/about/offices/list/osers/events/2016/texaslistening-sessions/index.html.

65a









listening sessions held throughout Texas in
December 2016;
Review of over 400 individual comments
received through a blog on the Department’s
website established to provide an opportunity
for members of the public to comment on the
issue;3
Review of State- and district-level documents
related to the identification and evaluation of
students with disabilities, and policies and
procedures regarding Response to Intervention
(RTI), provision of related aids and services
under Section 504 of the Rehabilitation Act of
1973 (Section 504), and the Texas Dyslexia
Program;
OSEP’s visits to twelve ISDs to collect
district-level and school-level data and to
interview teachers, administrators, and ISD
staff on referral, child find, and evaluation
practices and procedures4; and
Interviews with representatives from TEA to
discuss TEA’s oversight of district special
education
programs,
specifically
issues
regarding referral, child find, and evaluation of
children suspected of having disabilities.

3

The OSEP blog is currently available on OSERS’ website:
https://sites.ed.gov/osers/2016/11/texas-listening-sessions/.
4

During the week of the on-site visit, OSEP visited Aldine
ISD, Austin ISD, Ector County ISD, Everman ISD, Del Valle ISD,
Ft. Bend ISD, Harlandale ISD, Houston ISD, Laredo ISD,
Leander ISD, North East ISD, and United ISD.

66a
Additional Background Regarding Monitoring Visit
On October 3, 2016, in response to concerns
highlighted in an investigative report on special
education published in the September 11, 2016 edition
of the Houston Chronicle, OSEP wrote to TEA to
request information regarding the steps the State had
taken and would continue to take to address the
allegation that the use of the 8.5 percent indicator
resulted in a failure to identify and evaluate all
children in Texas suspected of having a disability
under the IDEA. We acknowledge that TEA took steps
to address some of the initial issues we outlined in our
letter, including informing each ISD in the State that
it may not violate the rights of children with
disabilities by delaying or denying referrals,
evaluations, or the provision of special education and
related services and announcing that the 8.5 percent
indicator would not be used for intervention staging in
future years. However, following TEA’s November 2,
2016 response, OSEP determined there was a need to
conduct listening sessions across the State to provide
parents and other members of the public the
opportunity to share concerns related to the
8.5 percent indicator.
We appreciated that TEA agreed to coordinate a series
of evening listening sessions during the week of
December 12, 2016.5 Both OSEP and TEA staff
attended the sessions held in five locations throughout
the State: Dallas, Houston, El Paso, Edinburg, and
5

In each of the five locations, OSEP also held afternoon
meetings with ISD staff to provide an opportunity for staff to
comment on the impact of the 8.5 percent indicator on special
education identification rates in their districts.

67a
Austin. Additionally, OSEP created a blog that was
open for comment from December 5, 2016 through
January 6, 2017. The listening sessions and the blog
attracted significant interest, with hundreds of
community members attending the listening sessions
and 423 individuals providing comments on the blog.
Comments received during the listening sessions and
through the blog raised questions about the State’s
compliance with the child find requirements in
section 612(a)(3) of the IDEA to identify, locate, and
evaluate children with disabilities who need special
education and related services and the requirement in
section 612(a)(1) of the IDEA, to make available a free
appropriate public education (FAPE) to all eligible
children with disabilities residing in the State.
Through the listening sessions and the blog, parents
described in great detail the steps they had taken to
obtain services for their children who were struggling
to learn in the general education environment. A
fuller description and analysis of comments provided
by parents is found in the Enclosure to this letter.
Among the numerous issues identified through public
comments, a number of parents described how their
children were unsuccessfully provided interventions
through RTI programs for years before finally being
referred for an initial evaluation for special education
and related services under the IDEA. Some parents
explained that their children were provided related
aids and services under Section 504, but continued to
encounter educational difficulties. Multiple parents
commented that they were informed by school officials
that their children’s diagnoses of dyslexia indicated
that the dyslexia was not “severe enough” to warrant

68a
an evaluation for special education and related
services under the IDEA.
Due to the volume of the comments provided by
parents, teachers, and other members of the public,
OSEP decided to return to Texas to conduct site visits
in select ISDs. OSEP provided TEA with additional
details about this visit in a January 19, 2017 letter.
We appreciated TEA’s prompt attention to providing
documentation from twelve ISDs in advance of the
visit, coordinating the logistics for the visits across the
State, and for attending each of the visits alongside
OSEP staff. We also appreciated the opportunity to
meet with TEA staff on March 3, 2017 to gain
additional information about State-level policies,
procedures, and practices.
Ten OSEP staff members conducted the onsite visits
and were accompanied by a TEA staff member during
each visit. OSEP staff generally visited two schools at
each ISD. At each school, OSEP conducted interviews
with two teams of teachers and a team of
administrators. OSEP also conducted an interview
with district administrators in each ISD. OSEP
communicated to school and district staff that the
intent of the visit was to gather additional information
about the decline in the State’s identification rate for
children with disabilities, explaining that the
interview would include questions about child find
procedures, as well as questions about other programs
and services offered in the school and/or district to
serve students in need of additional support such as
RTI, related aids and services under Section 504, and
the State’s dyslexia program.
Although these
interviews occurred at school and district levels, OSEP
clarified that the purpose of the visit was to ensure

69a
that the State carried out its general supervisory
responsibility under the IDEA by ensuring that ISDs
properly implement requirements under the IDEA.
Therefore, OSEP noted that findings would not be
issued with respect to specific schools or ISDs but
rather, the visit would result in the issuance of a
report to TEA identifying any statewide areas of
concern.
Summary of Findings of Noncompliance
A full description of OSEP’s monitoring and analysis
is found in the Enclosure to this letter. Of particular
note, OSEP determined that some ISDs took actions
specifically designed to decrease the percentage of
students identified for special education and related
services to 8.5 percent or below, even though there was
no evidence to indicate that students were improperly
referred and found eligible for special education and
related services. Consequently, TEA’s use of the
8.5 percent indicator did result in a decline in the
State’s overall special education identification rate
from 11.6 percent in 2004 to 8.6 percent in 2016.6
Through evidence collected during the monitoring
visit, OSEP staff also identified many situations
where ISDs engaged in practices that violated the
IDEA’s child find requirements, particularly in
situations in which ISDs provided supports to
struggling learners in the general education
environment through mechanisms including RTI,
Section 504, and the State dyslexia program, even
though the students were suspected of having
disabilities and needing special education and related
6

See data reported in the 2006 and 2016 PBMAS State
Reports, available at http://tea.texas.gov/pbm/stateReports.aspx.

70a
services under the IDEA. As such, OSEP’s monitoring
demonstrated that TEA did not ensure that all ISDs
in the State properly identified, located, and evaluated
all children with disabilities residing in the State who
were in need of special education and related services,
as required by 34 CFR § 300.111, and consequently,
failed to make FAPE available to all eligible children
with disabilities residing in the State, as required by
34 CFR § 300.101.
OSEP’s specific findings of noncompliance include the
following:
1.

TEA failed to ensure that all children with
disabilities residing in the State who are in need
of special education and related services were
identified, located, and evaluated, regardless of
the severity of their disability, as required by
IDEA section 612(a)(3) and its implementing
regulation at 34 CFR § 300.111.

2.

TEA failed to ensure that FAPE was made
available to all children with disabilities
residing in the State in Texas’s mandated age
ranges (ages 3 through 21), as required by
IDEA section 612(a)(1) and its implementing
regulation at 34 CFR § 300.101.

3.

TEA failed to fulfill its general supervisory and
monitoring responsibilities as required by IDEA
sections 612(a)(11) and 616(a)(1)(C), and their
implementing regulations at 34 CFR §§ 300.149
and
300.600,
along
with
20 U.S.C.
1232d(b)(3)(A), to ensure that ISDs throughout
the State properly implemented the IDEA child
find and FAPE requirements.

71a
OSEP appreciates the cooperation and assistance
provided by your State staff and others, including staff
from the regional Education Service Centers that
hosted the December 2016 listening sessions, and the
teachers and district staff who participated in onsite
interviews, as well as the hundreds of parents of
children and youth with disabilities and members of
the public who offered feedback and input on the
State’s systems for providing special education and
related services to eligible children with disabilities
under the IDEA. We also acknowledge that the State
is still working to recover from the impact of
Hurricane Harvey and that many staff resources at
TEA are dedicated to recovery efforts. Because we
acknowledge additional time may be needed to
address some of the corrective actions and next steps
outlined in the attached Enclosure, OSEP will work
with TEA upon issuance of this letter to establish an
agreeable timeline by which TEA will provide OSEP
with a plan for corrective action.
We look forward to actively working with the State to
improve results for Texas’ children and youth with
disabilities and their families. If you have any
questions or wish to request technical assistance,
please do not hesitate to call your OSEP State Lead,
Leslie Clithero, at 202-245-6754.
Sincerely,
/s/
Ruth E. Ryder
Acting Director
Office of Special Education Programs

72a
Enclosure
cc:
Justin Porter, Executive Director for Special
Populations
Tammy Pearcy, Assistant Director for Special
Education

